HHS/OIG, Audit -"Audit of LaPorte Consortiums Administrative Costs Claimed for
Medicaid School-Based Services,(A-06-02-00051)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of LaPorte Consortiums Administrative Costs Claimed for Medicaid School-Based
Services," (A-06-02-00051)
January 19, 2006
Complete
Text of Report is available in PDF format (1.95 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Medicaid school-based administrative costs that
LaPorte Consortium claimed were reasonable, allowable, and adequately supported in accordance
with Federal and State requirements. Some of the administrative costs that LaPorte claimed
were not reasonable, allowable, or adequately supported. Based on a sample of 120 claims,
we estimate that at least $2,408,218 (Federal share) was unallowable for reimbursement. We
found that timestudy participants did not always maintain personal activity logs and sometimes
charged incorrect activity codes. School districts sometimes included inappropriate personnel
in the timestudy and did not offset claimed administrative costs with revenues received for
direct services under School Health and Related Services.
We recommended that LaPorte work with the State agency to: (1) refund $2,408,218 to the
Federal Government; (2) recalculate all claims for school districts with fewer than 3,500
students, remove the costs for principals, and refund the difference; (3)ensure that (a)
only personnel expenditures that are related to Medicaid are included, (b) school districts
retain adequate documentation, (c) unallowable operating costs are not included, (d) expenditures
from other programs are not included, (e) direct service contract providers are not included,
and (f) costs are not overstated; (4) ensure that time studies are adequately supported,
do not include time spent on individualized education plan-related activities, include participants
who understand activity codes, and include only appropriate participants; (5) offset costs
claimed by SHARS revenues and refund the difference to CMS for prior, current, and subsequent
periods; and (6) review periods after the audit period and work with CMS to make appropriate
financial adjustments. In their reply to our draft report, LaPorte said that the findings
should be divided into two categories: (1) errors reflecting lack of documentation, incorrect
reporting, math errors, etc., and (2) policy-oriented findings. LaPorte agreed to correct
errors as necessary in the first category. With regard to the second category, LaPorte believed
that the OIG was applying standards that were inconsistent with the applicable State-approved
methodology. LaPortes reply did not categorize specific findings. LaPorte also requested
additional information in order to address concerns regarding specific findings. We will
provide the requested information.